<html>
<title> - THE CONTRIBUTION OF IMMIGRANTS TO AMERICA'S ARMED FORCES</title>
<body><pre>[Senate Hearing 106-548]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-548
 
        THE CONTRIBUTION OF IMMIGRANTS TO AMERICA'S ARMED FORCES

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSIONS

                                   on

  EXAMINING IMMIGRANT AMERICAN'S CONTRIBUTION TO THE ARMED FORCES AND 
                            NATIONAL DEFENSE

                               __________

                              MAY 26, 1999

                               __________

                          Serial No. J-106-30

                               __________

         Printed for the use of the Committee on the Judiciary






                    U.S. GOVERNMENT PRINTING OFFICE
65-450 CC                   WASHINGTON : 1999





                   SENATE COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman

ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York

                   Lee Liberman Otis,  Chief Counsel

                 Melody Barnes, Minority Chief Counsel

                                  (ii)




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Abraham, Hon. Spencer, U.S. Senator from the State of Michigan...     1
Feingold, Hon. Russell D., U.S. Senator from the State of 
  Wisconsin......................................................     4
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts..................................................    16
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...    22

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Elmer R. Compton, former army sergeant, 173d 
  Airborne Brigade, 1st Battalion Recon Platoon, headquarters 
  company in Vietnam, Evansville, IN; Alfred Rascon, recipient of 
  the silver star, former army specialist four, 173d Airborne 
  Brigade, 1st Battalion Recon Platoon, headquarters company in 
  Vietnam, Laurel, MD; Charles MacGillivary, recipient of the 
  medal of honor, former army sergeant, Company I, 71st Infantry, 
  44th Infantry Division, Braintree, MA; and Erick A. Mogollon, 
  gulf war veteran, senior chief petty officer, U.S. Navy, 
  Groton, CT.....................................................     6

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Compton, Elmer R.:
    Testimony....................................................     6
    Prepared statement...........................................     7
MacGillivary, Charles:
    Testimony....................................................    13
    Prepared statement...........................................    15
Mogollon, Erick A.:
    Testimony....................................................    17
    Prepared statement...........................................    19
Rascon, Alfred: Testimony........................................    11

                                APPENDIX
                  Additional Submission for the Record

Prepared statement of Paul Bucha, president of the Congressional 
  Medal of Honor Society.........................................    25



        THE CONTRIBUTION OF IMMIGRANTS TO AMERICA'S ARMED FORCES

                              ----------                              


                        WEDNESDAY, MAY 26, 1999

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.
    Also present: Senators Kennedy and Feingold [ex officio.]

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. We will start, and I want to welcome 
everybody to our subcommittee hearing on the contribution of 
immigrants to America's armed forces.
    Basically, I will be making an opening statement, and then 
we will go to the witnesses to make their statements. I know we 
will be joined by Senator Kennedy, probably, in 10 to 20 
minutes. He is testifying, I think, on the House side at a 
hearing there, so when he arrives, depending on where we are 
at, he will, of course, make an opening statement. And we may 
be joined by other members of our Senate Judiciary Committee 
before we are finished here.
    I want to thank everybody for coming. This hearing is part 
of a series in which our subcommittee has sought to balance the 
debate on immigration by shedding light on the positive 
contributions which immigrants have made and continue to make 
to American society.
    The first of these hearings in 1997, and at that time we 
heard from immigrant entrepreneurs, including John Tu of 
Kingston Technology, a maker of memory products for personal 
computers. Mr. Tu used the proceeds from the sale of his 
company, which totaled almost $1 billion, as I remember, to 
provide bonuses of $100 to $300,000 each to over 400 of his 
mostly native-born employees.
    At the second of the hearings we conducted on Ellis Island, 
which was in the summer, 1997, we heard from immigrants who 
represented four separate generations coming to this country. 
They ranged from Lillian Kreinik, who was a Lithuanian 
immigrant who came through Ellis Island and whose son served in 
the army for two decades, to Diameng Pa, a refugee from 
communist Cambodia who is now attending New York University 
Medical School on a scholarship. In high school, Mr. Pa 
volunteered in the Virginia school system to take the lead in 
trying to expand the interest in, and ultimately the number of 
students pursuing backgrounds and careers in math and science.
    In the third of these hearings which we conducted in 
September 1997, we heard from the key authors of a National 
Academy of Sciences report which concluded that immigration 
benefits the U.S. economy overall and has little negative 
effect on the income or the job opportunities of most native-
born Americans.
    In fact, that has sort of been the goal of these hearings, 
to try to buttress a case that I think anybody who looks 
rationally at immigration should reach or conclude, which is 
that immigration is a positive, not a negative component, that 
indeed the job creations and contributions and military service 
and a variety of other things done by immigrants certainly 
justify the tradition of this country as a Nation of 
immigrants.
    At today's hearing, what we will be doing is hearing from 
immigrants, as well as native-born individuals, who have 
firsthand knowledge of the military contributions of 
immigrants. The approach of Memorial Day is, I think, a proper 
occasion for us to reflect on what it means to live in a Nation 
that can attract young men and women who are not even born here 
to volunteer and, if necessary, both serve as well as give 
their lives for their adopted country.
    It is an occasion to reflect on what it means to live in a 
Nation where this day the children of immigrants volunteer and 
serve. Recall that even during World War II, when America 
fought Italy and Japan, we saw the sons of recent Italian and 
Japanese immigrants, without question, volunteer, fight and die 
for this country. On the field of battle, there are no native-
born and there are no immigrants; there are only Americans.
    Today, over 60,000 active military personnel are immigrants 
to this country. In some branches of the services, 5 percent or 
more of active duty enlisted personnel are immigrants. And this 
is particularly important, given our armed forces' current 
recruitment difficulties. Officials estimate today that half of 
all the new recruits at the Army station in Flushing, NY, are 
immigrants. In New York City, about one-third of the recruits 
are green cardholders who are not even yet naturalized 
citizens.
    This desire to serve is consistent with our history. More 
than 20 percent of the recipients of our highest military 
award, the Congressional Medal of Honor, have been immigrants. 
Indeed, America remains free because in no small part she has 
been blessed with many American heroes willing to give their 
lives in her defense.
    More than once, I have told the story of Nicolas Minue, a 
Polish-born soldier who served in the U.S. Military in World 
War II. In Tunisia, in 1943, Private Minue's company was pinned 
down by enemy machine gun fire. According to the official 
report, Private Minue voluntarily, alone, and unhesitatingly, 
with complete disregard for his own welfare, charged the enemy 
entrenched position with a fixed bayonet.
    He assaulted the enemy under withering machine gun and 
rifle fire, killing approximately 10 enemy machine gunners and 
riflemen. After completely destroying this position, Private 
Minue continued forward, routing enemy riflemen from dugout 
positions until finally he was fatally wounded. The courage, 
the fearlessness and the aggressiveness displayed by Private 
Minue in the face of inevitable death was unquestionably the 
factor that gave his company the offensive spirit that was 
necessary for advancing and driving the enemy from the entire 
sector. Nicolas Minue showed that not every American hero was 
born in America.
    Michigan, too, has her share of heroes. Francisco Vega, a 
citizen of my State, was born and raised in San Antonio, TX, 
the son of Mexican immigrants. His father served in the 
American Army during World War I. Frank Vega volunteered for 
the Army in October 1942 and fought for America in five major 
battles in Europe, including the crucial landing at Omaha 
Beach, in Normandy. He was awarded Bronze Stars for bravery in 
each of these five battles. After his discharge, Mr. Vega came 
to Michigan--he is a friend of mine; I know him well--and 
attended Aquinas College in Grand Rapids, where he started a 
small business.
    Today, we will hear from immigrant soldiers who have 
displayed valor on the field of battle. Among the witnesses are 
Charles MacGillivary, a recipient of the Medal of Honor, and 
Alfred Rascon, who received the Silver Star. The Department of 
Defense and the Secretary of the Army have informed the 
Congress that awarding Alfred Rascon the Medal of Honor is 
warranted and that the statutory time restrictions for this 
award should be waived.
    Last night, in accordance with this decision, I offered an 
amendment to the Defense authorization bill to authorize the 
awarding of the Medal of Honor to Mr. Rascon. It is my hope 
that this amendment will be approved and that after these many 
years Alfred Rascon will receive the honor that he so richly 
deserves.
    During his last year in office, President Ronald Reagan 
traveled out to a high school in Suitland, MD. He was 
surrounded by students there and he was asked by them about 
America and what it means to be an American. President Reagan 
looked out at the young people and he responded, I got a letter 
from a man the other day and I will share it with you. The man 
said that you go to live in Japan, but you cannot become 
Japanese. You can go to Germany or France, and he named all the 
others, and he said you could never become really a person of 
that country. But he said anyone from any corner of the world 
can come to America and become an American.
    We owe a debt, I believe, to all of those people, wherever 
they or their parents were born, who have kept our Nation free 
and safe in a dangerous world. And we owe a continuing debt of 
gratitude to those today who serve, guarding our homes and our 
freedom. Like all good things, freedom must be won again and 
again. I hope all of us will remember those immigrants and 
native-born who have won freedom for us in the past and stand 
ready to win freedom for us again if they must. May we never 
forget our debt to the brave who have fallen and the brave who 
stand ready to fight. So I want to welcome this panel and thank 
you for being here, as well as to all who have helped us.
    I notice that we have been joined by Senator Russ Feingold 
from Wisconsin, who sits on our Judiciary Committee. And while 
he is, notwithstanding my constant encouragement to join the 
subcommittee, not a member of the subcommittee, but a member 
who cares a lot about immigration issues and whom I have worked 
with on a number of these issues in the past, Senator Feingold 
we welcome you. I know you wanted to make a statement and so we 
will turn to you at this time.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Well, thank you, Mr. Chairman, and I want 
you to know that if the only consideration in choice of 
subcommittee was the chairman, this would have been my first 
choice.
    Senator Abraham. Thank you.
    Senator Feingold. I enjoy very much working with the 
chairman, and I give him enormous credit for holding what I 
understand will be a series of hearings on the subject of the 
role of immigrants in our current day, in addition to, of 
course, the historical role. I think that is an enormously 
important subject.
    So I am honored to be here today in the presence of these 
American heroes, and I commend you for calling this hearing, in 
particular, to recognize the contributions of immigrants to our 
armed forces and the sacrifices they have made.
    It is very important--and I know you share this view, Mr. 
Chairman--for us to remind the Senate and the country of the 
importance of immigrants to the health, vitality and growth of 
the United States. Those who serve or who have served in the 
military have done so much for this country, and I salute them 
and thank them.
    Mr. Chairman, I would like to take a minute to talk about 
one particular matter, and that has to do with one of the many 
immigrant communities that live in my State of Wisconsin. Their 
service to this country is unique and we have an opportunity in 
this Congress not only to recognize them, but also to help them 
achieve their goal of citizenship.
    During our involvement in Southeast Asia, before and during 
the Vietnam conflict, the decision was made by the Kennedy 
administration and continued by the Johnson and Nixon 
administrations to recruit ethnic Hmong and Lao people to 
assist the United States in our military efforts in Laos. These 
people made up what has been called the secret army. For years, 
they fought to keep the North Vietnamese from entering South 
Vietnam through Laos. They succeeded.
    They rescued American pilots who had been shot down, and 
guarded crucial American intelligence sites. Many of them died 
in the process of these missions, which actually saved 
countless American lives. I honor the service of the Lao and 
Hmong veterans of the United States and appreciate the great 
personal risks they and their families faced when they chose to 
help this country.
    These people were recruited, Mr. Chairman, by the U.S. 
Government, specifically by the CIA and the Department of 
Defense, to assist with our efforts in Southeast Asia. They 
willingly participated in these highly secret and often 
dangerous operations, including missions to rescue downed 
American pilots, because they believed in what America was 
trying to do in Vietnam.
    These individuals, Mr. Chairman, owed us nothing, but they 
helped us anyway, and now I think we owe them a great deal. 
After the CIA and the American soldiers went home and the 
communists took over, these brave Hmong and Lao were, and still 
are in many cases persecuted because they helped the United 
States in the war. Thousands of them have fled their homeland, 
many ending up in prison camps in Thailand. About 140,000 of 
them settled in the United States, and I am pleased that many 
of them have chosen to make my home State of Wisconsin their 
adopted homeland. They are legal immigrants, admitted as 
refugees to this country.
    Earlier this year, our colleague, Senator Wellstone, 
introduced Senate bill 890, the Hmong Veterans Naturalization 
Act. I am proud to be an original cosponsor of that bill, and 
it is now cosponsored by three of our colleagues who are 
Vietnam veterans, Senators Robb, Reed of Rhode Island, and 
Hagel. This bill would expedite the naturalization process for 
45,000 Lao and Hmong veterans and their spouses by waiving the 
English language requirement of the citizenship test.
    This waiver is especially important for Hmong veterans, 
one-third to one-half of whom are now over 70 years old. 
Apparently, until recently the Hmong did not have a written 
language. Learning English is an enormous challenge for them, a 
challenge that many of them have simply been unable to meet. 
The bill that Senator Wellstone and I have proposed would, for 
Hmong veterans and their spouses only, waive the requirement of 
the immigration law that those applying for citizenship 
demonstrate an understanding of the English language. This 
waiver is the least we can do to help repay the huge debt we 
owe these brave individuals.
    I have had the opportunity to meet with many Hmong and Lao 
veterans and their families as I travel throughout Wisconsin. I 
am struck by the profound importance they place on specifically 
becoming citizens of the United States. The most important 
thing to many of these individuals is to become legal citizens 
of the country they risked their lives to help and that they 
now call home.
    I should note here that many of the children of these 
veterans who, of course, are U.S. citizens and speak English as 
their native language are themselves enlisting in our armed 
forces. Their parents and their communities consider serving in 
the military of this country an honorable and important thing 
to do.
    So, Mr. Chairman, S. 890 would begin to repay a debt that 
this country owes the Hmong and Lao veterans that really can 
never be repaid. So I hope that you will consider moving this 
bill through the subcommittee as quickly as possible, and I 
again commend you for this very positive and important hearing 
and series of hearings that you have initiated.
    Senator Abraham. Thank you, Senator Feingold. Thanks for 
coming by today.
    At this point, we will hear from our panel, which is really 
quite a distinguished panel indeed. First, we will hear from 
Ray Compton, who is a former Army sergeant in Vietnam and 
received the Combat Infantry Badge, the Parachutist's Badge and 
a number of other commendations for his service in Vietnam.
    Then we will hear from Mr. Alfred Rascon who is, as I 
described earlier, a Mexican-born immigrant who was a member of 
Mr. Compton's platoon, which we will hear more about, I 
believe, in today's testimony. Mr. Rascon, as I indicated 
earlier, has received the Silver Star, two Bronze Stars and 
many other commendations for his service to this country.
    We will then hear from Mr. Charles MacGillivary. Mr. 
MacGillivary is a Canadian-born immigrant who enlisted during 
World War II, and for his valor during combat received the 
Medal of Honor. Mr. MacGillivary, who is the past President of 
the Congressional Medal of Honor Society, will also be 
presenting the testimony of Mr. Paul Bucha, the current 
President of the Medal of Honor Society, but who was called 
away unexpectedly and could not join us for the hearing here 
today.
    Finally, we will hear from Erick Mogollon, a Guatemalan-
born immigrant who is on active duty as a Senior Chief Petty 
Officer in the U.S. Navy. Senior Chief Mogollon has received a 
number of commendations during his distinguished 20-year Naval 
career and is a veteran of the Gulf War.
    We will begin with you, Mr. Compton. We welcome the entire 
panel and very much appreciate your taking a few minutes to be 
with us here today.

  PANEL CONSISTING OF ELMER R. COMPTON, FORMER ARMY SERGEANT, 
      173d AIRBORNE BRIGADE, 1st BATTALION RECON PLATOON, 
HEADQUARTERS COMPANY IN VIETNAM, EVANSVILLE, IN; ALFRED RASCON, 
RECIPIENT OF THE SILVER STAR, FORMER ARMY SPECIALIST FOUR, 173d 
  AIRBORNE BRIGADE, 1st BATTALION RECON PLATOON, HEADQUARTERS 
COMPANY IN VIETNAM, LAUREL, MD; CHARLES MacGILLIVARY, RECIPIENT 
 OF THE MEDAL OF HONOR, FORMER ARMY SERGEANT, COMPANY I, 71st 
 INFANTRY, 44th INFANTRY DIVISION, BRAINTREE, MA; AND ERICK A. 
 MOGOLLON, GULF WAR VETERAN, SENIOR CHIEF PETTY OFFICER, U.S. 
                        NAVY, GROTON, CT

                 STATEMENT OF ELMER R. COMPTON

    Mr. Compton. Thank you. Senator Abraham, I would like to 
thank you and the Senate for inviting me here to give me this 
opportunity to testify before the committee.
    I am a former sergeant with the 173d Airborne Brigade, 1st 
Battalion, of the 503d Infantry, Headquarters Company Recon 
Platoon. I served with the 173d in Okinawa and in Vietnam from 
September 1964 to April 1966. Serving in the military afforded 
me the opportunity to serve with immigrants from around the 
world.
    As a former sergeant, I understand the importance of having 
a strong military, and today I feel we have the strongest 
military in the world. And I feel this is due, in part, to the 
commitment made to the United States, past and present, by 
those individual immigrants who chose to be part of this 
country.
    When I look at my wife, my son and my daughter, I cannot 
keep from thinking of one particular immigrant by the name of 
Al Rascon, and the contribution he made to me and my family on 
March 16, 1966. The heroic and gallant action of Al Rascon on 
that day, I believe, saved my life, as well as other members of 
my team.
    On March 16, 1966, Al Rascon was with the Recon Platoon on 
a search and destroy mission known as Operation Silver City. My 
team had engaged a well-armed enemy force and the enemy had 
superiority and immediately pinned our fire team down. Through 
the intense fire of automatic fire and grenades, Rascon made 
his way to the point where my squad was pinned down and 
couldn't move in any direction.
    Although wounded himself, Rascon continued to move forward 
to work his way to my position, attending to my wounds as well. 
After reaching my position, I could see that he was in great 
pain. As he began to patch me up, as I was placing M16 fire in 
the direction of the enemy, two or three hand grenades were 
thrown in our direction, the direction of Rascon and myself, 
landing no more than a few feet away. Without hesitation, 
Rascon jumped on me, taking me to the ground and covering me 
with his body. He received numerous wounds from that encounter, 
also. I truly do believe his actions that day saved my life. 
What more can a person do for God, country and his fellow man?
    In closing, I think of the Military Code of Conduct, the 
first code, which goes I am an American fighting man. I serve 
in the forces which guard our country and our way of life, and 
I am prepared to give my life in its defense. The immigrants 
that I had the privilege to know and serve with upheld this 
code.
    Thank you for this opportunity to be here.
    Senator Abraham. Mr. Compton, thank you.
    [The prepared statement of Mr. Compton follows:]

                 Prepared Statement of Elmer R. Compton

    I would like to thank Senator Abraham and the members of the Senate 
for inviting me to testify before your Committee.
    I am a former sergeant with the 173rd Airborne Brigade 1st 
Battalion of the 503rd Inf. HQ, Company Recon Platoon, serving with the 
173rd in Okinawa and in Viet Nam from September 1964 to April 1966. 
Serving in the military afforded me the opportunity to serve with 
immigrants from around the world. As a former sergeant, I understand 
the importance of having a strong military and today I feel we have the 
strongest military in the world. I feel this is due in part to the 
commitments made to the United States, past and present, by those 
individuals, immigrants, who chose to be a part of this Country.
    When I look at my wife, son and daughter, I cannot keep from 
thinking of one particular immigrant by the name of Al Rascon and the 
contribution he made to me and my family on March 16, 1966. The heroic 
and gallant actions of Al Rascon on that day, I believe saved my life, 
as well as other members of my team.
    On March 16, 1966, Al Rascon was with the Recon Platoon on a search 
and destroy mission known as Operation Silver City. My team had engaged 
a well-armed enemy force.
    The enemy force had fire superiority that immediately pinned down 
the entire point squad with heavy machine gun fire and numerous hand 
grenades. Through the intense fire of automatic weapons and grenades, 
Rascon made his way to point where my squad was pinned down and could 
not move in any direction. Wounded himself, Rascon continued to work 
his way to my position, attending to wounded as he did.
    After reaching my position I could see that he was in great pain. 
He began to patch me up. As I was placing M16 fire in the direction of 
the enemy, two or three hand grenades were thrown in the direction of 
Rascon and myself, landing no more than a few feet away. Without 
hesitation, Rascon jumped on me, taking me to the ground and covering 
me with his body. He received numerous wounds to his body and face.
    I truly believe his actions that day saved my life. What more can a 
person do for God, Country and his fellow man. (Sworn statement 
attached.)
    In closing, I think of the Military Code of Conduct. The First 
Code, ``I am an American fighting man, I serve in the forces which 
guard our Country and our way of life. And I am prepared to give my 
life in its defense.'' The immigrants I had the privilege to know and 
serve with upheld this Code. Again, thank you for this opportunity.
                               __________
    I, Elmer R. Compton, former Sergeant with the 173rd Airborne 
Brigade, First Battalion of the 503rd Airborne, serving with the 173rd 
in Okinawa and Vietnam (1965-66) make the following statements as they 
pertain to the actions of our medic, then SP4 Alfred V. Rascon, during 
operation Silver City, and in particular March, 16, 1966.
    My first hand testimony is most critical, since I can personally 
attest, and did attest previously of then SP4 Rascon's incredible deeds 
on that day, because I was an eye witness to his actions on that 
afternoon. Everything that he did that day was within my immediate 
field of view and no more than 25 feet away, and as close as body to 
body, since I was one of two persons that Specialist Rascon shielded 
with his own body from incoming grenades, that severely wounded Rascon 
on both occasions.
    The heroic and gallant by SP4 Rascon prevented me from being 
critically wounded and more than likely saved my life.
    I, personally made verbal recommendation to the Platoon leader the 
evening after the firefight (March 17), that SP4 Rascon be recognized 
with the Medal of Honor or at least a DSC for his gallantry above and 
beyond the call of duty.
    In garrison, days after the battle we and other NCO's and enlisted 
personnel who witnessed SP4 Rascon's actions, submitted paperwork 
(statements & drawings) nominating for the Medal of Honor through the 
chain of command.
    I and other survivors were never aware that SP4 Rascon's nomination 
of the MH paperwork never went up the chain of command, until the last 
five years. Since then I, and others eyewitnesses have been trying to 
correct this error and injustice.
    I was the point man for the Recon platoon on the patrol and it was 
my squad that was ambushed, eventually killing or wounding every member 
of our squad.
    What happened almost 33 years ago, is easy to recall, although 
unpleasant and sad since, as I mentioned previously every member of my 
squad, along with then SSG Willie Williams, our element leader, our 
medic Rascon and possible one or two others from the Recon platoon were 
either wounded or killed on that March 16th, 1966. I would like to once 
again make a formal and official statement on what I personally 
witnessed on March 16, 1966.
    On March 16, 1966, our Recon platoon was asked to move as quickly 
as possible to the Second Battalion area of operation, in order to 
provide support to the battalion after it had encountered and engaged a 
well armed enemy force. I believe we were the last element to move 
towards the Second Battalion area.
    As we approached what we thought was the outer perimeter of the 
Second Battalion, I acting as the point man spotted a number of enemy 
personnel dressed in khaki uniforms manning a machine gun position to 
our front. Not knowing how many enemy personnel were actually there, or 
if others were in hiding, I came back to report the sighting. 
Immediately we engaged the enemy position, which instantly brought a 
massive and intense firefight.
    The enemy force had fire superiority and familiarity of the 
terrain, that immediately pinned down the entire point squad through a 
heavy and accurate concentration of small arms and machine gun fire, 
including numerous hand grenades.
    Immediately, I motioned and told our machine gunner Thompson to 
move forward and lay fire upon the enemy machine gun emplacement that 
was to our immediate front. As he did this, he was able to only fire 
one or two burst from the weapon, before it jammed. Thompson who was 
laying almost on the edge of an open trail spontaneously became the 
focus of heavy automatic enemy fire and hand grenades from his forward 
and flank area. As he tried to unjam the machine gun, he was 
immediately struck by enemy weapons fire and laid motionless, next to 
his machine gun. The enemy force was very close to our positions and 
had excellent field of fire, providing them superior views to any 
movement by our squad or the rest of the Recon platoon.
    A few seconds later, miraculously through the intense fire of 
automatic weapons, small arms and hand grenades, SP4 Rascon had made 
his way to our point and was laying off the trail a few meters away 
from Thompson, with possibly Louis at his side.
    The entire squad was still pinned down and no one could move to the 
aide of Thompson and another wounded soldier, because of the sheer 
intensity of the enemy fire. Extended movement in any direction, 
without counterfire was useless and pure suicide, since we were getting 
hit by deadly accurate enemy fire that was all around us, that included 
the lobbing of a number of hand grenades. We yelled for cover fire from 
the rest of the platoon that was to our rear and trying to get to us.
    SP4 Rascon tried one or two times to move towards Thompson, to give 
him aide, but became the center point for all of the enemy fire and 
hand grenades. Thompson's assistant machine gunner, and another soldier 
had previously tried to assist Thompson and another injured trooper to 
his rear, but were rebuffed by the heavy, accurate fire power, thus 
remaining pinned down and unable to move, and unable to aide Thompson 
or throw him the spare machine gun barrel.
    Under heavy enemy fire SP4 Rascon made another attempt and through 
the hail of machine gun fire and hand grenades reached Thompson, taking 
the spare barrel with him.
    SP4 Rascon was completely exposed in the open trail trying to 
provide aide to Thompson, now under intense enemy fire. In an attempt 
to protect Thompson, SP4 Rascon placed his body to the on coming fire, 
as a shield, and as he was performing these courageous deeds, SP4 
Rascon was hit by enemy fire in the back or hip. Although seriously 
wounded, SP4 Rascon disregarding his severe wound, continued to expose 
himself to the enemy fire, and doggedly continued to try to aide and 
move Thompson to a safer area, which he finally accomplished. SP4 
Rascon's valorous efforts and complete disregard for his own being to 
reach and provide aide to Thompson, were superhuman, but were not 
enough to save Thompson life from his massive wounds. SP4 Rascon's 
efforts to provide aide and to move Thompson to a safer location, the 
machine gun was left on the edge of the trail, along with the spare 
barrel. After attending to Thompson, SP4 Rascon, now critically 
wounded, drawled with great pain, endangering himself again to the 
heavy enemy fire to secure the machine gun and spare barrel. He 
accomplish this, in spite of the intense hostile fire and hand grenade, 
handing the machine gun and spare barrel to possibly Louis or Hatfield, 
who were just off the trail trying to place suppressive fire in support 
of SP4 Rascon's movement. One of them was able to quickly change the 
barrel and placed the weapon back in action.
    This action by SP4 Rascon's, I believe saved numerous other lives 
from possible severe injury or death, since we needed the machine gun 
to return fire to the more heavily armed enemy force around us.
    What must be noted is that any activity, no matter how minor 
immediately brought the onslaught of enemy fire, based on the close 
proximity of the enemy force. When SP4 Rascon went after Thompson the 
enemy force had him and Thompson in their sights of fire, but somehow 
SP4 Rascon survived this ordeal.
    The point squad continued to maintain a protective perimeter as 
best as it could, and when possible provide some cover fire to Rascon's 
movement within the enclosed area, that was under continued heavy enemy 
fire all around our positions. SP4 Rascon severely wounded and in pain 
continued to move (crawl) about giving aide or assistance to the 
wounded.
    Sometime, during the firefight, I clearly recall that one of the 
wounded soldiers, possibly Hatfield, who SP4 Rascon had given first 
aide too earlier, made an attempt to get up and move to another 
position. Rascon immediately recognized the danger of this act, and 
without regard for his personal safety, and handicapped by his severe 
wound, managed to get up, revealing himself once again to the enemy 
fire to tackle and bring to the ground the wounded soldier. Neither 
Rascon nor the other soldier were hurt, but they did receive immediate 
intense hostile fire to their position.
    SP4 Rascon's unselfish action in my eyes saved the soldier life, or 
at least from severe injury. Rascon had again placed himself in the 
field of fire and could have been killed, yet again his concern was for 
his fellow soldier.
    A short time later, SP4 Rascon headed in the direction of another 
soldier who was severely injured. It was Louis who was critically 
wounded some ten feet away from me, having been hit by either hand 
grenades or machine gun fire. Still Crawling, and bleeding from his 
wound, SP4 Rascon was again placing his life in danger, being exposed 
to the hand grenades and weapons fire being directed at him, to reach 
and provide first aide to Louis. SP4 Rascon under the accurate fire 
aimed at him, reached Louis, and successfully moved him off to a safe 
location, where he and another soldier tried to revive Louis, however, 
all efforts proved futile, based on his massive injuries.
    Well into the firefight, SP4 Rascon, under deadly enemy grazing 
fire and in still obvious great pain from his hip wound had crawled 
back to my area, making sure that I was alright after being hit with 
grenade shrapnel.
    By then enemy fire and hand grenades had wounded or killed every 
member of the point squad, yet we were still defending our positions 
and Rascon was still moving about and attracting enemy fire as he did 
this.
    As I was placing M-16 fire in the direction of the incoming enemy 
fire, two or three hand grenades were thrown in the direction of SP4 
Rascon and myself. One grenade landed no more than four feet away from 
both us. SP4 Rascon without any hesitation jumped on me, taking me to 
the ground and covering me with his body. He received the full force of 
the grenade blast, resulting in a severe wound to his face, and 
numerous small wounds to his body with his T sack literally shredded 
and deformed from the grenade blast, with his helmet peppered with 
shrapnel.
    This unbelievable, unselfish and heroic action taken by SP4 Rascon 
prevented me from being critically wounded and more than likely saved 
my life.
    Although, the concussion of the grenades had momentarily shaken us, 
we both regained our composure. I continued to fire on the enemy and 
SP4 Rascon quickly continued to seek out the wounded. I could see that 
he was in severe pain by his difficult movement and the bleeding from 
his back or hip wound. This was now compounded by the massive bleeding 
from his face wound, and other possibly injuries received from the 
grenade blast, yet he stuck with it until the firefight terminated.
    Eventually the rest of the Recon platoon was able to come to our 
assistance, through a frontal assault by the main Recon platoon and 
flanking movement led by SFC Akuna with some soldiers, finally routing 
the enemy.
    After the firefight SP4 Rascon made his way to the wounded and the 
mortally wounded, making sure that everyone was being provided adequate 
care.
    SP4 Rascon, throughout the firefight never received, nor did he try 
to administer first aide to his person, his only consideration was the 
men of the Recon platoon.
    SP4 Rascon had refused treatment by anyone, until everyone of the 
soldiers from the Recon platoon had been accounted for medically.
    Within the point squad, myself, SSG Williams, SGT Hanna, SP4 
Hatfield, PFC Gibson, along with Louis (prior to his mortal wound) had 
all personally witnessed and provided statements of SP4 Rascon's super 
human accomplishments.
    Later on, at our base camp, a statement by SFC Cook, our 
Reconnaissance Platoon Sergeant pretty well restated what we all knew, 
that he was putting SP4 Rascon for at least a DSC, for his actions back 
on the 16th of March, based on his personal observations and statements 
made by other members of the Recon platoon. I and others within the 
Recon platoon felt and still feel that SP4 Rascon's efforts on March 
16, were extraordinary.
    SP4 Rascon's every effort was to seek out the wounded, exceeding 
this by constantly exposing himself to enemy fire that was killing or 
seriously injuring a number of our Recon platoon members. We were all 
appreciative of his efforts, yet we were aware that every effort by 
Rascon, diminished his life expectancy, during the firefight yet he 
prevailed.
    The incident in which SP4 Rascon jumped on top of me, protecting me 
from the on-coming grenade, is an overwhelming act. He was prepared to 
give his life for my safety and I'm sure of others that might have been 
within the immediate blast of the grenade. This extraordinary act of 
caring for another human being has gotten other military personnel the 
recognition of this countries highest military honor, yet here was SP4 
Rascon accomplishing the same act as other great men have done before 
him in time of war, and yet it was some how overlooked.
    If SP4 Rascon would have died, from this one incident, I am sure 
the outcome of the citation would have changed. You cannot deny such an 
overt act of valor that was committed, it was an act committed in a 
spontaneous manner, without forethought about survival, only the 
intentions of saving another human being.
    In closing I just want to again say that;

  1. SP4 Rascon's unselfish act in shielding me, through his on body 
    from the oncoming grenade(s), more than likely saved me from being 
    critically injured and possibly saved my life. This one act almost 
    caused SP4 Rascon his life, or permanent personal injury, yet he 
    felt it was his duty to this, not thinking of himself, only his 
    fellow soldiers.

  2. SP4 Rascon, obligated as a combat medic to give medical aide to 
    the wounded, went far and above the call of duty by placing his own 
    life in constant danger in the firefight. The odds for his survival 
    were greatly stacked against him from the start, because of the 
    extreme closeness of enemy force and their hostile fire. This was 
    further compounded by his constant exposure to the enemy, when 
    attending to the wounded.

  3. As stated over and over again, SP4 Rascon time and again ventured 
    openly, disregarding his well being and his life into the onslaught 
    of heavy, accurate treacherous enemy fire that was obviously 
    killing or wounding everyone in my squad in a noble and unselfish 
    quest to render aide and comfort.

  4. SP4 Rascon more than likely saved the life of SP4 Hatfield, when 
    he, already wounded, again disregarded his own safety and life to 
    tackle down SP4 Hatfield, surely saving him from incoming accurate 
    enemy fire that have caused great injury or death upon him.

  5. In retrieving the machine gun and spare barrel kit back to us, 
    surely played a important and critical factor in our ability to 
    return counterfire in the initial moments of the firefight that was 
    going in favor of what I think was a well entrenched and heavily 
    armed enemy force.

    I believe that the above summation of what I personally saw SP4 
Rascon accomplish on that day and statements by Recon members will 
again prove out what we previously stated and submitted in March, 1966.
    In keeping with the highest traditions of the military service and 
reflecting great credit upon himself, his unit and the United States 
Army, I, Elmer R. Compton, do again hereby recommend that the Medal of 
Honor be awarded to SP4 Alfred V. Rascon in recognition of his service 
on March 16, 1966.
                                  Elmer R. Compton,
                        Former SGT, Reconnaissance Platoon,
             HHC 1/503d (ABN), Infantry, 173d Airborne Brigade SEP.

    Sworn before me this 26 day of January, 1998
    Notary Public Damonte B. Witzbacher
    My Commission Expires June 15, 2000

    Senator Abraham. Mr. Rascon, we welcome you again. We have 
had the opportunity to do some things a couple of years ago 
together, and have always appreciated your help on things with 
us here at the committee. I am hopeful that the Senate will 
express its appreciation a little more formerly and 
appropriately here before we conclude the bill that is on the 
floor today.
    We welcome you, as well as members of your family, and we 
will hear from you at this time.

                   STATEMENT OF ALFRED RASCON

    Mr. Rascon. Thank you very much, sir. First of all, I want 
to thank you for bringing Ray Compton here. The last time that 
I did see him was 33 years ago, and we weren't having a very 
good day. Again, I can't thank you enough for having him here.
    I have a prepared statement that I would like to come back 
and give to you.
    Senator Abraham. Sure.
    Mr. Rascon. First of all, Mr. Chairman, members of the 
committee, had my parents not made the difficult decision to 
emigrate from Mexico to the United States when I was a young 
boy, I would not be here before you today. I am grateful for 
this opportunity from the committee to add my dialog on the 
contributions of immigrants to the U.S. Military.
    I want to personally thank you, Senator Abraham, not only 
for this opportunity, but for other opportunities in which you 
have highlighted the distinguished service to the country of 
immigrants in the military and other fields. If it wasn't for 
your initiatives, many people would not be aware of the 
contributions of immigrants not only in the military, but the 
contributions immigrants as a whole have made to the country. 
So for this and for the many things you have done for 
immigrants, on behalf of immigrants across this Nation I want 
to thank you personally.
    Although by birth immigrants are from other nations, they 
have served and continue to serve with pride and great 
distinction in the U.S. Armed Forces. The U.S. Military affords 
immigrants the opportunity to demonstrate their commitment to 
this great Nation, with some making the ultimate sacrifice, as 
you had stated before, giving their lives.
    When I began attending grade school in Southern California, 
I could not speak a word of English. I spent my youth wanting 
to assimilate into America. I gradually learned to speak 
English, even without an accent, or I thought I didn't have 
one. Learning English was a difficult task before me. Other 
than in school, Spanish was the language in my home and in the 
community.
    Living near three military bases and watching convoys head 
for ports or debarkation on their way to the Korean War in the 
1950's, I developed a fascination for the military. In fact, at 
the age of 7, I made a parachute and jumped off the roof of our 
home. Well, in military airborne jargon, my parachute had a 
total malfunction and I streamed in, resulting in a broken 
wrist.
    As soon as I graduated from high school, at the age of 17, 
I joined the military. Being underage, I pressured my parents 
into signing the age waiver, and I think they still regret it. 
I volunteered to be a paratrooper, my first love. My first bad 
jump at the age of 7 did not deter me at that time. As a legal 
permanent resident of this great country, I wanted to give back 
something to this country and its citizens for the 
opportunities it had given me and my parents.
    In 1963, I completed basic advanced individual training in 
airborne school and was then sent to Okinawa, Japan, as an 
airborne medic. In May 1965, I arrived with the 173d Airborne 
Brigade in South Vietnam, where I served as a reconnaissance 
platoon medic with the 1-503d Airborne Battalion. Until 
recently, those paratroopers who served with me in the 
reconnaissance platoon knew nothing of my immigrant status. It 
was never an issue with them. In fact, they were rather 
surprised. They simply knew me as ``Doc,'' and they still know 
me as ``Doc.''
    In March 1966, my military career was curtailed because of 
combat wounds, which eventually lead to an early honorable 
discharge. I returned to Southern California with a more mature 
outlook on life and with a motivation to continue in service to 
this country. Again, my love for the military gravitated me 
back into service.
    Overcoming more injuries, I was able to rejoin and enter 
the Army's Infantry Officers Candidate School. I was 
commissioned a second lieutenant of infantry, eventually making 
it back to Vietnam to serve a second term. I completed 6 
additional years of military service, until my active military 
service ended due to combat-related wounds.
    The Army provided me with an opportunity to serve my 
adopted country. Above all, it gave me the opportunity to give 
something of myself to this great Nation. I was once asked by a 
reporter why, as a noncitizen of the United States, I 
volunteered to join the military and to serve in Vietnam, not 
once but twice. I answered ``I was always an American in my 
heart.''
    Again, thank you, Senator Abraham, Senator Feingold, as 
well as the other Senators who will be here, for giving me this 
chance to express my love for this great country and its 
military. Thank you very much, sir.
    Senator Abraham. Mr. Rascon, thank you for being here and 
for all you have done and your contributions. We appreciate 
them.
    Mr. MacGillivary, we welcome you as well, and thank you for 
your magnificent contributions and we are very pleased to have 
you with us today.

               STATEMENT OF CHARLES MacGILLIVARY

    Mr. MacGillivary. Mr. Chairman, members of the committee, 
my name is Charles MacGillivary. I was born in Charletown, PE, 
Canada, the smallest province in Canada. I was born on January 
7, 1917. I came to the United States in 1933 at the ripe old 
age of 16. I was in the Merchant Marines. I was on a Canadian 
ship at the time. I went to New York, and I had a brother 
living in South Boston. I came off the ship and kept sailing 
across the North Atlantic on other ships.
    I sailed on Norwegian ships, Panamanian ships and American 
ships. I crossed the North Atlantic several trips at the height 
of submarines controlling the North Atlantic and trying to 
catch the life line of Great Britain. I finally figured my luck 
was running out, and I didn't want to get torpedoed, so I 
decide to join the U.S. Army.
    When I went to go in the Army, they saw that I had a 
gunner's ticket from the Merchant Marines. The Navy wanted me 
and they offered me ratings and all that, but I still wanted to 
go in the Army to give me some time ashore. I went in the Army 
and I ended up at Fort Devons, Air Mass. They kept me there for 
2 weeks. The officer of the day came along and said, you spent 
a lot of time in Europe. He says, would you like to be a 
citizen of the United States? I said, if I am going to fight 
for the United States, I want to be a citizen.
    He had a young Norwegian who was a Merchant Marine and he 
had a Mexican who was from Mexico. And they took us into the 
Federal court in Boston, in front of a judge, and swore us into 
the United States as citizens. From there, I went to Fort 
Benning and I took my basic training, and then from Fort 
Benning they took me to a place called Ancrum, Scotland, and I 
trained right alongside the British commandos with Company I, 
71st Regiment, 44th Division.
    We made the landing on Omaha Beach, and from Omaha Beach we 
fought through the hedge rows of France, right up to the German 
border, to a place called Woelfling, one part of us in France, 
and the other part was in Germany. We ran into the SS 17th 
Panzer Division, and it was December 17, 1944. My company 
commander got knocked out and my lieutenant got knocked out. At 
that time, I was a platoon sergeant, just head of a platoon. We 
had no officers left. I was the highest ranking officer and I 
took over Company I.
    We fought from December 17, and we were running out of 
ammunition and we were running out of food. And the weather was 
so bad they couldn't drop anything to us. Christmas Day of 
1944, we were eating frozen oatmeal. The Germans had disks that 
they would play to us, that they would give us Christmas dinner 
if we surrendered and all that. And some of them did try to 
surrender, they would cut the belt of their pants and put their 
hands over their head and tell them to run across a field. When 
they would reach for their trousers, they would machine gun 
them out of the top of tanks. I told them there was nothing to 
surrender to.
    So we were pinned in by four machine guns on both flanks of 
us. I volunteered to knock out the four machine guns. I had as 
many hand grenades as we had left and I had what they call a 
grease gun in the Army. It was the old .45 caliber, like a 
tommy gun. And at the last machine gun nest, the SS trooper was 
wounded. His next was pretty well wiped out and he swung the 
gun and he caught me down around the side. It took part of my 
arm off. The only thing that saved me was the snow. I froze in 
the snow. If I had gotten hit in the South Pacific, I would 
have bled to death.
    The free French picked me up and they just picked me up, a 
cake of ice, and put me on a Jeep and took me back to a field 
hospital. And I thought I was captured because there were 
Germans there and French, and then along came a chaplain and he 
said they were going to take me back to an aid station. They 
took me back to an aid station, and from the aid station they 
took me to Marseilles, and from Marseilles I came back to the 
Walter Reed Hospital.
    Now, all I can say is I met quite a few immigrants, like 
myself, that were fighting in France, and some of them did not 
even become citizens because they didn't get the chance that I 
did at Camp Air Mass, Fort Devons. We had one Norwegian that 
had both his legs off in the Walter Reed Hospital, and he told 
me he was going back to Trondheim, Norway, where his father had 
a hunting camp. And left the States, not becoming a citizen, 
and I used to get Christmas cards from him. He passed away here 
about 6 years ago. He never got the Medal of Honor, but he 
stepped on a mine and his legs were blown off.
    History will show you in the United States, if you go back 
to the Civil War, Ireland had 204 Medal of Honor recipients 
from the north and the south of Ireland. In 1973, when I had 
the honor to be nominated to the presidency of the 
Congressional Medal of Honor Society, I made up my mind that I 
would bring out what the Irish did for this great Nation of 
ours.
    I got a plaque made up and went to Ireland and gave it to 
the President of Ireland on St. Patrick's Day, in 1975. Then 
when I came back from Ireland, I had the same plaque from the 
Medal of Honor Society of 54 Canadians that received the Medal 
of Honor, and went up to Ottawa and met with the Victoria 
Crosses and gave them the plaque with all the names of the 
Canadians that received the Medal of Honor. That plaque is now 
in the headquarters of the Veterans Administration; it is in 
Charletown, where I was born, in the administration building.
    Also, I went to Mr. Rotterbush, who was the head of the 
Veterans Administration. The Medal of Honor markers on their 
graves were never marked the Medal of Honor like they did with 
the Victoria Cross. They would engrave it in the cement and 
they had it in bronze. I went to Congressman McCormick and he 
told me that he would have the money put in the budget, and I 
had to go in front of Owen Page, who was chairman of the 
Veterans Committee. And he had it put in and they have markers 
on the graves today of Congressional Medal of Honor.
    I took four of those markers up to Canada, one to Halifax, 
one to St. John, New Brunswick, and one to Calais, ME, and they 
are on their graves today. Nobody can ever tell me that 
foreigners that come to this country--you read the history; 
there are 1,400 Medals of Honor issued in this great Nation of 
ours, and almost half of them foreign-born. You had two Medal 
of Honor recipients from World War II--one's name is Monroe; he 
was in the Coast Guard, the only Medal of Honor to come out of 
the Coast Guard, he was in Iwo Jima, and myself from the Army.
    We had a man that lived in the next town. His name is 
Seats. He was born in London. He was the oldest Medal of Honor 
recipient. He came from the Boxer Rebellion. He died in the 
Brockton V.A. Hospital. I used to go over to see him. He went 
blind, and the only thing he wanted was to be buried in 
Arlington. He had a son that was in a submarine in World War 
II. We made sure that he went to Arlington, and he is buried 
there.
    We have a Vietnam veteran; his name is Lemmerts. He is 
living in Colorado. He is a Medal of Honor recipient from 
Vietnam. We had two of them in Korea. I don't think there is a 
foreigner right today as we talk--there are battles going on 
and they are in danger. They are fighting for this Nation of 
ours, and nobody can tell me that they didn't add anything to 
this Nation. I think we are all foreigners. Aren't we all? We 
had an American-born Indian in the 45th Division.
    I went to France and I met Ernie Pyle when he was in 
France, and he said, sergeant, what keeps the Americans going? 
And the only thing that kept Americans going--they were trying 
to free people and they were free people themselves. That is 
what made the American soldier great. They were second to none. 
The real hero is left over there at the age of 18, 17, left his 
high school, took his basic training and went into battle. The 
first time he left his hometown was to go in the Army. That is 
what makes America great.
    We have got the greatest form of government in the world. 
All we have got to do is put it to work, and when we put it to 
work there is no nation that can ever lick us. We proved that 
in World War II. We fought three battles on three fronts--
Burma, the South Pacific, and Europe. We put 15 million in the 
armed services in World War II, men and women. That is why we 
are here today, to try to protect our freedom, and I am proud 
and honored to come before you and talk about foreigners--
Irish, Africans, Italians. I had a great friend of mine, Peter 
Delassandro. He lost his life. He got the Medal of Honor 
posthumously.
    Thank you, and it is an honor for me to be here.
    [The prepared statement of Mr. MacGillivary follows:]

               Prepared Statement of Charles MacGillivary

    Mr. Chairman, Members of the Committee. My name is Charles 
MacGillivary. I was born in Charletown, Prince Edward Island, Canada on 
January 7, 1917. I came to the U.S. in 1933 when I was 16 years old to 
live with my brother who was in Boston, Massachusetts. During the next 
few years I worked as a merchant marine and was in and out of the 
country. When World War II began our ships were in constant danger from 
German torpedoes.
    On December 7, 1941, after Pearl Harbor was attacked and the U.S. 
joined the war, I decided that the right thing to do was volunteer to 
fight for this country. I joined the U.S. Army. I went to Fort Devons, 
Massachusetts for two weeks of training. While there, an officer asked 
me and two other immigrants from Mexico and Norway whether we wanted to 
become U.S. citizens. We all agreed. We were taken to the federal 
courthouse and were sworn in before a judge. I thought that if I was 
going to fight for this country I should be a U.S. citizen.
    In 1942, after receiving more training, I was sent to Europe as 
part of Company I, 71st Infantry, 44th Infantry Division. I landed in 
France at Omaha Beach as part of the Normandy invasion. We fought our 
way through France taking back towns from the Germans. In December 
1944, my company, the 44th Infantry Division, was near Woelfling, 
France. We became pinned down by the 17th German Panzer Division. Our 
company commander and lieutenant commander were both hit. As the 
platoon sergeant, I was left in command. We had been pinned since 
December 17th. By January 1, we were running out of ammunition and the 
men in my company were talking of surrender. The Germans were promising 
us a Christmas dinner if we surrendered. I told the other men that they 
had nothing to surrender too.
    As the head of my company I had a duty to do something. I decided 
to try to knock out some of the German machine guns that surrounded us. 
I thought that this was the only way we were going to get out. I was 
able to knock out four machine guns before being wounded. I was shot 
across the chest and leg and ended up loosing my left arm.
    I was awarded the Purple Heart because I was wounded in combat. 
Additionally I learned that I would receive the Congressional Medal of 
Honor. On August 23, 1945, I attended a ceremony at the White House 
with 28 other veterans. President Truman presented us with the medals. 
I was very honored to have been included among so many distinguished 
recipients. I was also very proud that I, as an immigrant, had been 
selected to receive this award. I am happy to say that there are now 
714 other immigrants who have received the Congressional Medal of 
Honor.
    After receiving the award, I returned to Boston to marry my wife 
who had waited for me during the war. I have since remained very active 
in veteran organizations. I am a lifetime member of the Veterans of 
Foreign Wars, the American Legion, Disabled American Veterans, AMVETS, 
the Order of the Purple Heart, and the Congressional Medal of Honor 
Society. I served as President of the Congressional of Honor Society 
from 1973 to 1975.
    During my presidency at the Congressional Medal of Honor Society, I 
took on the project of identifying past recipients of the Medal of 
Honor who were born in Ireland and Canada. I went to Ireland in 1975 to 
present a plaque to President Cearbhall O'Daligh of Ireland, containing 
the names of the 204 Irish-born Medal of Honor recipients. I presented 
a similar plaque to Prime Minister Trudeau in 1976, containing the 54 
names of Canadian-born Medal of Honor recipients. I have also delivered 
stones to the graves of Canadian-born Medal of Honor recipient who were 
buried in Canada. I was able to enlist the help of the Royal Canadian 
Legion with this project. The stones are placed on the graves of all 
Medal of Honor recipients buried here.
    My experience and the record shows that since the Civil War, 
immigrants have fought valiantly to defend this country. No one can 
prove to me otherwise.

    Senator Abraham. Mr. MacGillivary, I just want to thank 
you. It is an honor for us to have you here today. Not only 
does your testimony about your own personal experience mean a 
lot to us, but it is very important, I think, for us to hear 
about the accomplishments of so many others, as you have 
related them, who are people that didn't necessarily find 
themselves born in the United States, but chose to come here 
and then were willing to give their lives for this country. We 
appreciate your testimony of bearing witness to that.
    I know Senator Kennedy has joined us here. He may want at 
this point, if Mr. Mogollon would give us a little bit of 
flexibility here to depart from our panel, to let Senator 
Kennedy comment and then we will move forward.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. I would like to take one moment, Mr. 
Chairman, to welcome all of our guests here and thank them for 
being here and sharing with us their life's experience. I think 
you, Mr. Chairman, and certainly the record of this committee 
will understand what all of us have understood for years in my 
own State of Massachusetts. John MacGillivary is an 
institution, and he has given more inspiration to children in 
schools that he has spoken to, and older people, senior 
citizens, that he has spoken to and to politicians that he has 
spoken.
    We get reminded about the best in our Nation and about 
service to the country and selfless service to the Nation, and 
that has been his and our panel's contribution. And their love 
of this Nation is so clear, and its values, and it is a good 
lesson for us to hear again and again. It is important that we 
do.
    We thank him for his incredible service and his continuing 
service, because it is real service, in telling us about what 
our policies ought to be in many different areas. So I thank 
him very much for being here, and welcome also Erick very much 
for his service to the Navy and working on the John F. Kennedy 
aircraft carrier in the Gulf and his continued service to the 
country, and Alfred and Ray as well. We thank you all for 
coming.
    I think what we have seen and what has been said here is 
the contribution of individuals who desire to be a part of this 
Nation, and then through force of circumstance find out that 
they are called up to serve it. What the record has been 
historically in the most recent times, to the time of the 
earliest days of the Republic, is that they have served with 
extraordinary courage and heroism. And they feel a part of our 
process.
    Maybe it is the issue of citizenship that gives sort of the 
official designation, but in terms of the emotion and the 
feeling of what is in their hearts and what is in their minds, 
that comes at a different moment, and their devotion to the 
Nation comes. And we as a country ought to understand that. So 
much of what we have done in the very recent times has failed 
to do so, and I think it is an important blot on our statute 
books, and many of us are attempting to alter and change that.
    So I thank all of you for being here. I thank the chairman 
for having this hearing. It is very, very important, and I 
commend you and thank you for having it.
    Senator Abraham. Thank you, and thank you for being here 
with us and helping us to put it together. We have very much 
appreciated working together with you, Senator Kennedy, on 
this.
    We have one last witness, and we appreciate your being here 
as well today, Chief. We look forward to hearing from you, 
Chief Mogollon.

                 STATEMENT OF ERICK A. MOGOLLON

    Mr. Mogollon. Mr. Chairman, Senator Kennedy, I am honored 
to appear before you today to talk about immigrant Americans' 
contributions to the armed forces and our national defense. I 
would like to share with you a few thoughts on how I became an 
American and why I joined the U.S. Navy.
    I was born in Guatemala City, Guatemala, on January 24, 
1960, and emigrated to the United States with my family in 
1970. My mother, three brothers--all three of them actually 
serve in the armed forces--and one sister live outside Boston, 
in Milford, MA.
    In 1973, I moved to East Douglas and attended Douglas High 
School. I am proud to say I graduated in 1979 with high honors. 
For me, that was a great achievement due to the fact that, just 
like Alfred over here, I could not speak a word of English when 
I first came on board--on board--I feel like I am on a ship. 
[Laughter.]
    While in high school, I entered the delay entry program and 
shipped out to boot camp in September 1979. I joined because of 
the opportunity to excel and to give of myself in gratitude for 
what this great country of ours has done for me and my family. 
I would like to acknowledge the support of my wife--she is 
sitting behind me--Marilyn, and my four children, Solines, 
Erick, Elias and Marilyn--throughout my career. Sailors go to 
sea, but the family must always remain behind.
    Being able to qualify for service was in itself an 
accomplishment that encouraged me to do my best. I graduated at 
the top of my class from a school and was assigned to the 
world's best aircraft carrier, the USS John F. Kennedy, CV-67.
    After serving on the Kennedy, I was assigned to VR-22 and 
VQ-2 in Rota, Spain. I have enjoyed the opportunity of overseas 
service, and earned my qualification as an aviation warfare 
specialist. While in Spain, I was fortunate and honored to 
receive the Commander in Chief United States Naval Forces 
Europe Leadership Award for petty officers. Being chosen from 
thousands of highly qualified shipmates was truly rewarding.
    The most important highlight of this tour was my 
citizenship. On June 17, 1985, I became a U.S. citizen at 
Fanuiel Hall, Boston, MA. I flew all the way back from Spain. 
After Spain, I asked for reassignment to the USS John F. 
Kennedy, CV-67. I am proud of the ship and our combat service 
during Operations Desert Shield and Desert Storm. As a newly 
promoted chief petty officer, I served as a flight deck chief 
during the war and was directly responsible for the launching 
and recovery of our combat aircraft.
    During the war, USS John F. Kennedy aircraft participated 
in over 120 combat strike missions and flew nearly 4,000 strike 
sorties. I am proud to say we did not lose any pilots or air 
crew during the war. The professionalism and dedication of our 
sailors were evident in daily operations. After the war, I 
assigned to the USS America, CV-66, as the leading chief petty 
officer for B-3 Division, and was able to experience the 
contributions of many immigrant Americans who are dedicated to 
the defense of our Nation.
    I now teach leadership to the senior enlisted force and am 
assigned to the submarine school in Groton, CT. This gives me 
the opportunity to instill pride and commitment to others. 
After having the opportunity to meet so many shipmates over the 
course of my career, I can honestly say that the contribution 
of immigrant Americans can never be fully measured. These 
soldiers, sailors, airmen and Marines have left their 
motherland, been welcomed by the United States, and have given 
of themselves to the defense of this Nation.
    For many immigrants, they have given and will continue to 
give because of their deep appreciation and dedication to the 
United States. They know firsthand how it is to live without 
the protection and security they now count on, and will give 
their lives to protect it.
    Thank you again for the opportunity to appear today. I look 
forward to any questions.
    [The prepared statement of Mr. Mogollon follows:]

                Prepared Statement of Erick A. Mogollon

    Mr. Chairman and distinguished members of the Committee, I am 
honored to appear before you today to talk about immigrant American's 
contribution to the Armed Forces and our national defense. I'd like to 
share with you a few thoughts on how I became an American and why I 
joined the United States Navy.
    I was born in Guatemala City, Guatemala on 24 January 1960 and 
immigrated to the United States with my family in 1970. My mother, 
three brothers and one sister lived outside of Boston in Milford, 
Massachusetts. In 1973, I moved to East Douglas and attended Douglas 
High School. I am proud to say I graduated in 1979 with high honors. 
While in high school, I entered the Delayed Entry Program and shipped 
out to boot camp in September 1979. I joined because of the opportunity 
to excel and to give of myself in gratitude for what this great country 
of ours has done for me and my family. I'd like to acknowledge the 
support of my wife, Marilyn and my children, Solines (15), Erick (12), 
Elias (9) and Marilyn (6) throughout my career. Sailors go to sea, but 
the family must always remain behind.
    Being able to qualify for service was itself an accomplishment that 
encouraged me to do my best. I graduated at the top of my class from 
``A'' school and was assigned to the world's best aircraft carrier, the 
USS John F. Kennedy (CV-67). After serving on Kennedy, I was assigned 
to VR-22 and VQ-2 in Rota, Spain. I have enjoyed the opportunity of 
overseas service and earned my qualification as an Aviation Warfare 
Specialist. While in Spain, I was fortunate and honored to receive the 
Commander-in-Chief, U.S. Naval Forces Europe, Leadership Award for 
Petty Officers. Being chosen from thousands of highly qualified 
shipmates was truly rewarding. The most important highlight of this 
tour was my citizenship. On June 17, 1985, I became a United States 
Citizen at Fanuiel Hall in Boston, Massachusetts.
    After leaving Spain, I asked for reassignment to the USS John F. 
Kennedy (CV-67). I am proud of the ship and our combat service during 
Operations Desert Shield and Desert Storm. As a newly promoted Chief 
Petty Officer, I served as a flight deck chief during the war and was 
directly responsible for the launching and recovery of our combat 
aircraft. During the war, USS John F. Kennedy aircraft participated in 
over 120 combat strike missions and flew nearly 4000 strike sorties. I 
am proud to say we did not lose any pilots or aircrew during the war. 
The pride, professionalism and dedication of our sailor's was evident 
in daily operations.
    After the war, I was assigned to USS America (CV-66) as the Leading 
Chief Petty Officer for V-3 division and was able to experience the 
contributions of many immigrant Americans who are dedicated to the 
defense of our nation. I now teach leadership to the senior enlisted 
force and am assigned to the Submarine School in Groton, CT. This 
highlight gives me the opportunity to instill pride and commitment to 
others.
    After having had the opportunity to meet so many shipmates over the 
course of my career, I can honestly say that the contribution of 
immigrant American's can never be fully measured. These Soldiers, 
Sailors, Airmen and Marines, have left their motherland, been welcomed 
by the United States and have given of themselves to the defense of 
this nation. For many immigrants, they have given and will continue to 
give because of their deep appreciation and dedication to the Untied 
States. They know, first hand, how it is to live without the protection 
and security they now count on, and will give their lives to protect 
it.

    Senator Abraham. Mr. Mogollon, thank you, and we really 
appreciate your service as well. Your comments as you concluded 
are the ones that I hope we can broadcast as far as possible 
because one of the frustrations that I think both Senator 
Kennedy and I encounter are people who somehow don't appreciate 
the remarkable contributions which our immigrants today as well 
as historically have done for the country.
    And I can't think of an area--you know, we talk about a lot 
of different things, but the military contributions, to me, 
rank first and foremost just because we are talking about 
people, including three on this panel, who have put themselves 
in a position to fight for a country that they have adopted. 
And I don't think that is a very widely known story, and that 
is one of the reasons we are here today because I really think 
that too often the debates about immigration, particularly the 
issues that relate to legal immigration, are one-sided.
    We hear about problems. We hear people try to pretend or 
claim that somehow immigration hurts America, and we have not 
had an adequate opportunity to hear about the contributions. 
And so the contributions we have heard today, in my mind at 
least, are as powerful as any we could possibly have to 
demonstrate exactly why this country's immigrant history is a 
great one and should be continued.
    Senator Kennedy, do you have any questions for the panel?
    Senator Kennedy. Well, I think just to continue the thought 
of our chairman, I think most Americans think that just 
citizens are in the military. I mean, I think if you ask most 
in a high school class who serves in the military, I think they 
would be very surprised that individuals who are resident 
aliens and other immigrants, before citizenship, are serving in 
the armed services. They would be very surprised about it.
    They find out that they are paying taxes and contributing 
to the well-being of the communities and cities and counties. 
They are paying their taxes into it. And the other factor is 
there is very little evidence that they are overutilizing the 
services that are available to them. They have come here for 
opportunity, and because of an energy and an interest and 
because they have shared values.
    Let me just ask the panel, because you came from not a 
native-born tradition--all of you come from somewhat different 
circumstances geographically, obviously, but did you find that 
people that were immigrants were less willing to pull their 
share of the load in the service which you came in contact 
with? As nonnative-born Americans, probably if there were 
others, they probably sought you out or looked for you or you 
came across them, or whatever. From your own experience in the 
service, what was your experience and contact? Maybe you could 
give it just very quickly down the line.
    Mr. Compton. Actually, I would say the privilege that I had 
to serve with the immigrants--and we were probably 25 percent, 
and we had them from all over the world. And let me say this. I 
was born and raised in the United States and I think we are all 
good American fighting men. But when the chips were down, they 
were there. Like I said, we had guys from all over, and whether 
it was a unit or whether it was their nationality, they stuck 
with you. You could count on them. You never had to look back 
because they were beside you.
    Senator Kennedy. Alfred.
    Mr. Rascon. Sir, I think that ends up being one of the 
equalizers, especially during the military in a combat 
situation, that regardless of where you were born, when a 
bullet is coming at you, the bullet doesn't come back and ask 
you what immigration status you are. And it was really 
forthcoming especially in Vietnam, especially with the Recon 
platoon that I was with.
    We were literally color-blind. Everybody was there to do 
one thing and that was for their country, regardless of where 
they were born. That is the thing that I come back and I carry 
with myself everyday--duty, honor and country--by the fact that 
I had the opportunity to come into this country, and thank God 
for my parents who came into this country. It is just a way of 
life and it is an honor, sir.
    Senator Kennedy. Could I ask you, did you get caught in the 
draft or how did you come to be in the military--were you in 
voluntary induction?
    Mr. Rascon. No, sir. I came into the service, in fact----
    Senator Kennedy. What year?
    Mr. Rascon. 1963. I was out of high school. I had the 
opportunity to attend college, but in my heart I always wanted 
to be in the military and that was an obligation I think I had. 
The odd thing about it, I didn't really realize that I was not 
a citizen of the United States until possibly when I was in 
high school and I would end up filling out forms--place of 
birth. And all of a sudden, Chihuahua, Mexico, wasn't exactly 
in the United States And I said, oh, I guess I am a foreigner.
    Then I didn't realize that I was not a citizen, but in the 
military it wasn't a question of where I was from. Like I said, 
I was a medic the first time and I think up until now when they 
do end up calling me, it is not Alfred Rascon, it is Doc.
    Senator Kennedy. Well, the people that went on into higher 
education got education deferments. You had employment 
deferments, you had marital deferments, so someone else was 
fighting up until the time we got the random selection in. That 
was actually in 1968, and so they really could have worked out 
the process, probably, and even avoided the service. And the 
fact that you went in and felt that kind of obligation, let 
alone how you performed once you were in there, is an 
additional noteworthy point.
    Charlie, I think you have given us a pretty good sense 
about it, about your own experience.
    Mr. MacGillivary. Well, the way it was for me, I was in the 
Merchant Marines. If I stayed ashore for 30 days, I would be 
eligible for the draft if I stayed in the United States. If I 
stayed ashore 30 days in Canada, I would be eligible for 
conscription. And I sailed the North Atlantic a good many 
times. I fired coal burners across the North Atlantic, and I 
also made the Murmansk run. And I had enough of the sea, and 
there were too many ships getting defeated, so I went in the 
Army. They tried to take me in the Navy because I had a 
gunner's ticket. I wouldn't go. I went into the Army, and I 
joined the Army at South Station, taken to Devons, and that was 
it.
    Senator Kennedy. Well, I am familiar with Fort Devons. I 
hesitate to even mention my service after listening to yours, 
but I did go in through Fort Devons, both in and out.
    Erick, what about you? Do you find that there are others in 
the service, nonnative-born, here in the United States that you 
have run into, and do they do a good job in the service?
    Mr. Mogollon. I think one of my best experiences with that 
was on the USS America, because I was in charge of that one 
division and I had people from Korea, I had people from China, 
I had people from Mexico. I had people from everywhere, and my 
division stood out. I wish I would have had a picture because I 
took a picture of my guys. I still consider them my guys, but 
it was great. We actually worked side by side, and on the USS 
America at that time we did go to the deal with the Haiti stuff 
back in 1994, and we stuck together.
    The thing about it is that there is no difference, 
especially out at sea for sailors. The Army, you know, they are 
a little bit different than us. But sailors, we have to trust 
our people. We have trust, from the commanding officer all the 
way down, and one of the things that I am trying to instill now 
with our guys now in our senior leadership is the fact that 
early in the morning--I bring out lessons 2 weeks at a time, 
and every morning we do the ``Pledge of Allegiance'' to put 
back into focus what are we really here for.
    And from there, a lot of times we play patriotic songs 
first thing in the morning, and they are surprised that we are 
doing this in our leadership classes. I say yes, because we 
have to go back to our focus. What are we really here for?
    Senator Kennedy. Well, I thank all of you for being here.
    Mr. Chairman, I have a statement from Senator Leahy, if 
that could become part of the record.
    Senator Abraham. That will be great. Thank you, Senator.
    [The prepared statement of Senator Leahy follows:]

 Prepared Statement of Hon. Patrick J. Leahy, a U.S. Senator From the 
                            State of Vermont

    I commend Senator Abraham and Senator Kennedy for holding this 
hearing on immigrants' contributions to the U.S. armed forces. It has 
become fashionable for Congress over the last several years to use 
immigrants as scapegoats and blame them for society's problems. So I am 
pleased when we focus attention on the many ways in which immigrants 
have contributed to our country and serve our nation.
    According to the CATO Institute, immigrants account for more than 
20 percent of all recipients of the Congressional Medal of Honor--the 
country's highest award for battlefield valor. That is more than 700 
immigrants who served this country in time of war and displayed heroism 
``beyond the call of duty.'' Many lost their lives or were seriously 
injured.
    Today's witnesses provide further evidence--if evidence is needed--
that immigrants share a commitment to defending this nation and are 
willing, if necessary, to give what Abraham Lincoln called ``the last 
full measure of devotion'' in support of America's interests.
    As we pay tribute today to our immigrant veterans, we should ask 
ourselves why we are often so quick to turn our backs on them. Under 
the immigration ``reform'' legislation enacted in 1996, Congress passed 
and the President endorsed a broad expansion of the definition of what 
makes a legal resident deportable. In the rush to be tough on illegal 
immigration, the bill also vastly limited relief from deportation and 
imposed mandatory detention for thousands of permanent residents in 
deportation proceedings. These harsh new measures have now snared 
immigrants who spilled their blood for our country. As the INS prepares 
to deport these American veterans, we have not even been kind enough to 
thank them for their service with a hearing to listen to their story 
and consider whether, just possibly, their military service or other 
life circumstances outweigh the government's interest in deporting 
them.
    Here is the cold and ugly side of our ``tough'' immigration 
policies. Here are the human consequences of legislating by 30-second 
political ad. Unfortunately the checks and balances of our government 
have failed these veterans because Congress and this Administration 
were determined not to be outdone by each other. ``Tough'' in this case 
meant blinding the INS to the personal consequences of these people. It 
meant substituting discretion with a cold rubber stamp that can only 
say ``no.''
    Just last month, a 52-year old Vietnam veteran named Gabriel 
Delgadillo was deported for a crime he committed in 1988. The crime, 
burglary, was reclassified as a mandatory deportation offense under the 
1996 law. Delgadillo left behind a wife and seven children, all U.S. 
citizens.
    Ralph Hesselbach enlisted in the U.S. Army in the summer of 1967, 
when he was 17 years old, and fought in active combat in Vietnam. As a 
scout dog handler with the 33rd Scout Dog Platoon of the 4th Infantry 
Division, Specialist Hesselbach served as a permanent point man and led 
scouting missions to uncover mines, trip wires and intercept ambushes. 
In late 1968, he was severely injured and permanently disabled in an 
explosion at base camp. He was honorably discharged to medical 
retirement and was awarded the National Defense Service Medal, the 
Combat Infantry Badge, the Vietnam Service Medal, the Vietnam Campaign 
Medal and the Good Conduct Medal. Hesselbach challenged the retroactive 
application of the 1996 law, but was ordered deported by an immigration 
judge. His service and sacrifice got him no consideration whatever.
    Rafael Ramirez is a 35-year-old New Yorker who immigrated from the 
Dominican Republic at the age of seven and who, nine years after his 
honorable discharge from the Army as a sergeant, faced deportation. His 
offense: in 1990, just months after leaving the Army, he pled guilty to 
possessing marijuana.
    I brought Sergeant Ramirez's case to the attention of INS 
Commissioner Meissner, and I was pleased that some semblance of justice 
was eventually achieved. But in too many cases, the INS maintains that 
the 1996 law stripped it of any discretion to consider whether military 
service or other life circumstances may outweigh the government's 
interest in deportation. We need to ensure that every veteran's case is 
carefully reviewed by an immigration judge empowered to do justice.
    Our national policy on deportation of veterans is particularly 
disgraceful at a time when we are sending tens of thousands of U.S. 
servicemen and women, including untold numbers of non-naturalized 
immigrants, into harm's way in the Balkans. Why on earth has Congress 
asked the INS to devote its limited resources to hunting down 
immigrants who previously answered this country's call to duty, some of 
whom were permanently disabled in the course of their service?
    A few weeks ago, I introduced the Fairness to immigrant Veterans 
Act of 1999, S. 871. This bill would restore for veterans the 
opportunity to go before an immigration judge to present the equities 
of their case and to have a federal court review any deportation 
decision. It would also restore for veterans the opportunity to be 
released from detention and at home with their families while their 
case is under consideration.
    The injustice addressed by this legislation is just one egregious 
example of how recent immigration ``reform'' has resulted in the break-
up of American families and the deportation of people who have made 
significant contributions to our country. This Congress needs to 
address the broader injustices that the prior one-upmanship caused. In 
the meantime, as Memorial Day approaches, the Senate should take an 
important step in the right direction by passing the Fairness to 
Immigrant Veterans Act.

    Senator Abraham. I really don't have a lot of questions 
because I think these hearings are ones where the witnesses say 
pretty much what needs to be said and there is very little for 
us to contribute.
    I did want to follow up, though, Erick, just really 
briefly. You have been in service on active duty for about 20 
years at this point?
    Mr. Mogollon. In September, it will be 20 years.
    Senator Abraham. Is it your impression that there still 
continues to be a fairly large number of immigrant-born 
individuals who are continuing to enlist even today?
    Mr. Mogollon. Oh, yes, yes.
    Senator Abraham. We have heard anecdotal evidence that 
suggests a fairly significant number continuing.
    Mr. Mogollon. They still are, but the only thing is you 
just can't tell unless you ask them.
    Senator Abraham. Right.
    Mr. Mogollon. When we are serving out there, we are 
serving.
    Senator Abraham. Right.
    Mr. Mogollon. Just like he mentioned earlier, the bullets--
it doesn't matter who you are.
    Senator Abraham. Right.
    Mr. Mogollon. And when we are out there, we just serve.
    Senator Abraham. I appreciate it. Well, I just want to 
thank you all. Obviously, as I say, we have some hearings here 
where the focus tends to be on an immigration problem, whatever 
it might be, and we have had our share of those because that is 
part of the job we have as a subcommittee.
    But I have felt since we began this--well, since I became 
chairman, at least, that it was important to balance the debate 
and to make sure people understood that there were not just 
problems related to immigration, but great accomplishments, and 
we have heard a lot about them today. We will continue to have 
hearings like this.
    Obviously, Alfred, we will continue to work with you on the 
legislation I mentioned because I think it is necessary that we 
pass it. And to you, Mr. MacGillivary, we want to thank you for 
not just, as I say, the great service to the country, but for 
helping to let other people know, as you have done in the role 
you have had with the Medal of Honor Society, to make sure 
people know.
    And to you, Mr. Compton, thanks for coming to bear witness 
to----
    Mr. Compton. Can I make a comment?
    Senator Abraham. Sure, please.
    Mr. Compton. I would just like to make a comment. Al and 
I--this is the first time we have laid eyes on each other 
yesterday in 33 years, 27 years before we even communicated 
after Vietnam. Not only were we together in Vietnam, but we 
also served together in Okinawa and went to Vietnam together.
    I had nominated him for the Congressional Medal of Honor 33 
years ago, and for some reason that honor has not been bestowed 
upon him as of yet. And I appreciate your effort and the effort 
of the other people that are working toward--hopefully, we can 
get that accomplished.
    And when I said in my cover letter that I dearly do believe 
that I wouldn't be here had it not been for Al Rascon, I am a 
firm believer in that, and not just myself, other members of my 
squad. And this hounded me and haunted me for 33 years and I 
have never been able to do anything about it up until now. And 
I just want you to know I certainly appreciate the opportunity 
of being here.
    Senator Abraham. Well, I am glad you are here, and I want 
to say that I think you and others who have tried to help in 
this process have helped us to draw more attention to this, 
what we consider to be unjust circumstance that we hope to 
change. So thank you for what you have done.
    Thank you all. I want to thank those who have helped us put 
the hearing together. We appreciate it.
    We are adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                  Additional Submission for the Record

                              ----------                              


                    Prepared Statement of Paul Bucha

    My name is Paul Bucha, President of the Congressional Medal of 
Honor Society, and I have asked Charles MacGillivary, a past president 
of the society, to present my testimony. I want to thank you Senator 
Abraham for holding this hearing and, more importantly, for displaying 
leadership on the immigration issue and reminding us of America's great 
tradition as a nation of immigrants.
    Let me state my position clearly: All of us owe our freedom and our 
prosperity to the sacrifices of immigrants who gave of themselves so 
that we might have more. We are fortunate and we are forever indebted 
to those who have gone before.
    The Medal of Honor is the highest award for valor in action against 
an enemy force which can be bestowed upon an individual serving in the 
U.S. Armed Services. Generally presented to its recipient by the 
President in the name of Congress, it is often called the Congressional 
Medal of Honor. In 1946, the Medal of Honor Society was formed to 
perpetuate and uphold the integrity of the Medal of Honor and to help 
its recipients. In 1957, Congress passed legislation, later signed by 
President Eisenhower, that incorporated the Congressional Medal of 
Honor Society.
    A review of the records shows that 715 of the 3,410 Congressional 
Medal of Honor recipients in America's history--more than 20 percent--
have been immigrants. I would like to share the stories of some of 
these individuals so the committee can better understand the sacrifices 
made by these and other immigrants.
    Lewis Albanese, an immigrant from Italy served during the Vietnam 
War as a private first class in the U.S. Army. On December 1, 1966, 
Albanese's platoon advanced through dense terrain. At close range, 
enemy soldiers fired automatic weapons. Albanese was assigned the task 
of providing security for the platoon's left flank so it could move 
forward.
    Suddenly, an enemy in a concealed ditch opened fire on the left 
flank. Realizing his fellow soldiers were in danger, Albanese fixed his 
bayonet, plunged into the ditch and silenced the sniper fire. This 
allowed the platoon to advance in safety toward the main enemy 
position.
    The ditch that Lewis Albanese had entered was filled with a complex 
of defenses designed to inflict heavy damage on any who attacked the 
main position. The other members of the platoon heard heavy firing from 
the ditch and some of them saw what happened next: Albanese moved 100 
meters along the trench and killed six snipers, each of whom were armed 
with automatic weapons. But soon, Albanese, out of ammunition, was 
forced to engage in hand-to-hand combat with North Vietnamese soldiers. 
He killed two of them. But he was mortally wounded in the attack.
    ``His unparalleled action saved the lives of many members of his 
platoon who otherwise would have fallen to the sniper fire,'' reads the 
official citation. ``Private First Class Albanese's extraordinary 
heroism and supreme dedication to his comrades were commensurate with 
the finest traditions of the military service and remain a tribute to 
himself, his unit, and the U.S. Army.'' Lewis Albanese was 20 years 
old.
    Mexican-born immigrant Marcario Garcia was acting squad leader of 
Company B (22nd Infantry) near Grosshau, Germany during World War II. 
Garcia was wounded and in pain as he found his company pinned down by 
the heavy machine gun fire of Nazi troops and by an artillery and 
mortar barrage. Garcia crawled forward up to one of the enemy's 
positions. He lobbed hand grenades into the enemy's emplacement, 
singlehandedly assaulted the position, and destroyed the gun, killing 
three German soldiers.
    Shortly after returning to his company, another German machine gun 
started firing. Garcia returned to the German position and again 
singlehandedly stormed the enemy, destroying the gun, killing three 
more German soldiers, and capturing four prisoners.
    Finally, Lieutenant John Koelsch was a London-born immigrant who 
flew a helicopter as part of a Navy helicopter rescue unit during the 
Korean War. On July 3, 1951, he received word that the North Koreans 
had shot down a U.S. marine aviator and had him trapped deep inside 
hostile territory. The terrain was mountainous and it was growing dark. 
John Koelsch volunteered to rescue him.
    Koelsch's aircraft was unarmed and due to the overcast and low 
altitude he flew without a fighter escort. He drew enemy fire as he 
descended beneath the clouds to search for the downed aviator.
    After being hit, Koelsch kept flying until he located the downed 
pilot, who had suffered serious burns. While the injured pilot was 
being hoisted up, a burst of enemy fire hit the helicopter, causing it 
to crash into the side of the mountain. Koelsch helped his crew and the 
downed pilot out of the wreckage, and led the men out of the area just 
ahead of the enemy troops. With Koelsch leading them, they spent nine 
days on the run evading the North Koreans and caring for the burned 
pilot. Finally, the North Koreans captured Koelsch and his men.
    ``His great personal valor and heroic spirit of self-sacrifice 
throughout sustain and enhance the finest traditions of the U.S. Naval 
Service,'' his citation for the Medal of Honor reads. That self-
sacrifice, the citation-notes, included the inspiration of other 
prisoners of war, for during the interrogation he ``refused to aid his 
captors in any manner'' and died in the hands of the North Koreans.
    These and other immigrant Medal of Honor recipients tell the story 
not only of America's wars but of America's people. After all, we must 
never forget that all of us are either immigrants or the descendants of 
immigrants.
    Tens of thousands of immigrants and hundreds of thousands of the 
descendants of immigrants have died in combat fighting for America. I 
put to you that there is a standard, a basic standard, by which to 
judge whether America is correct to maintain a generous legal 
immigration policy: Have immigrants and their children and 
grandchildren been willing to fight and die for the United States of 
America? The answer--right up to the present day--remains a resounding 
``yes.'' Thank you Mr. Chairman and members of the committee for 
receiving my testimony.


                                <greek-d>

</pre></body></html>
